IN THE SUPREME COURT OF THE UNITED STATES
No.20-1404
Kenyon Garrett
Petitioner,
v.
United States of America
Respondent

CERTIFICATE OF SERVICE
I, Kenyon J Garrett Petitioner/ Appellant Pro Se, herby certify that on this
Twenty-Fourth day of June 2021, I sent copies of this brief to the Respondent
named below by first class postal mail.

Solicitor General of the United States
Room 5616
Department of Justice
950 Pennsylvania Avenue, N.W.
Washington, D.C. 20530-001
Attorney for the Respondent

Kenyon J arrett
Petitioner/Appellant Pro Se
P.O. Box 132826
Tyler, TX 75713
(903) 574-0783
Kerityler88@gmail.com

10

